                National Aeronautics and Space Administration

                    OFFICE OF INSPECTOR GENERAL




                Audit of NASA’s Environmental
                      Restoration Efforts




                             OFFICE OF AUDITS
                                 AUDIT REPORT
IG-14-021                        JULY 2, 2014
(A-12-011-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

CERCLA       Comprehensive Environmental Response, Compensation, and Liability Act
DOD          Department of Defense
ECR          Environmental Compliance and Restoration
EMD          Environmental Management Division
EPA          Environmental Protection Agency
FY           Fiscal Year
GAO          Government Accountability Office
JPL          Jet Propulsion Laboratory
NETS         NASA Environmental Tracking System
NPL          National Priorities List
NPR          NASA Procedural Requirements
OIG          Office of Inspector General
RCRA         Resource Conservation and Recovery Act


                                                              REPORT NO. IG-14-021
JULY 2, 2014




                                                                                             OVERVIEW

       AUDIT OF NASA’S ENVIRONMENTAL RESTORATION EFFORTS
                                                                                               The Issue

   Decades of rocket testing, research, and other activities by NASA and the Department of
   Defense (DOD) have resulted in significant environmental contamination at several NASA
   Centers and facilities involving substances, which in sufficient concentrations, research has
   shown to cause cancer, birth defects, developmental issues, and other serious ailments.
   Federal and state laws require NASA to evaluate the environmental and safety impacts of
   Agency operations and clean up pollutants released into the environment from past activities.
   The Environmental Management Division (EMD) at NASA Headquarters manages the
   Agency’s Environmental Compliance and Restoration (ECR) Program. EMD provides
   guidance on how to comply with Federal, state, and local environmental laws and
   regulations, while ECR Program officials sample, monitor, and oversee Agency restoration
   and cleanup efforts.1
   To facilitate the budget planning and project management process, Agency officials input
   information regarding funding requirements for environmental restoration projects into a
   database known as the NASA Environmental Tracking System (NETS). Officials also use
   NETS to estimate unfunded liabilities associated with environmental issues as part of
   NASA’s annual financial statements.2 As of April 2013, NETS included 142 environmental
   projects at Headquarters, all nine Centers, the Jet Propulsion Laboratory (JPL), and four
   supporting facilities.3 These projects ranged from periodic monitoring of sites for which
   cleanup is complete to ongoing projects estimated to cost hundreds of millions of dollars.
   In this audit, we examined the extent of NASA’s environmental restoration needs and the
   effectiveness of the Agency’s current activities to address those needs. Specifically, we
   reviewed whether NASA has an effective program for prioritizing and implementing
   environmental restoration projects and whether the Agency is taking advantage of
   opportunities to share restoration costs in appropriate cases. Details of the audit’s scope and
   methodology are in Appendix A.

   1
       NASA EMD, “Guidance for Implementation of Environmental Compliance and Restoration Program
       Requirements Defined in NASA Procedural Requirements 8590.1A,” April 19, 2013.
   2
       Unfunded environmental liabilities are the amounts estimated but not yet funded to clean up
       environmental sites and the associated cost of operations, maintenance, and monitoring expected to take
       place over a 30-year period.
   3
       NASA’s organizational structure includes a Headquarters Office in Washington, D.C.; nine Centers
       located across the country; the Jet Propulsion Laboratory (a federally funded research and development
       center); and supporting facilities, such as the White Sands Test Facility, Michoud Assembly Facility,
       Wallops Flight Facility, and the Santa Susana Field Laboratory. For purposes of this report, we use the
       generic term “Center” to refer to NASA’s official-designated Centers and related component facilities.



REPORT NO. IG-14-021
                                                                                                          OVERVIEW



     Results

     NASA faces significant challenges to appropriately prioritize and manage Agency
     environmental restoration projects with the limited funds available for this purpose.
     Since 2006, NASA has spent or budgeted an average of $62 million per year to address
     an estimated $1.1 billion in unfunded environmental liabilities (see Appendix B for
     FY 2013 unfunded environmental liabilities by Center). One project – the Santa Susana
     cleanup – has a fast approaching deadline and an associated cost that could consume
     NASA’s entire restoration budget. Moving forward, NASA will make limited progress in
     addressing the Agency’s significant environmental cleanup responsibilities without an
     appropriately funded restoration program that effectively prioritizes the highest risk
     projects, monitors the status of those projects, and shares restoration costs with other
     entities when appropriate.

     Challenges with Project Prioritization. NASA policy dictates that the Agency
     prioritize environmental projects that (1) pose the greatest risk to human health or the
     environment, (2) are likely to proactively reduce risks to the environment, or (3) threaten
     neighboring property.4 In addition, as part of the prioritization process, EMD managers
     consider whether a particular site is subject to an agreement with state or Federal
     regulators. Consequently, projects governed by such agreements score higher than
     projects that may pose similar or more serious health risks but are not subject to such
     agreements. Because EMD starts funding from the top of its project priority list and
     works down the list until funding is exhausted, a project’s priority ranking is important.

     According to EMD officials, agreements with regulators can raise project scores by as
     many as 3 to 4 points. For example, a project at Ames Research Center to remediate a
     trichloroethylene plume in the groundwater is subject to an agreement with the
     Environmental Protection Agency and received a score of 22. However, another cleanup
     project involving a trichloroethylene plume at Goddard Space Flight Center that is not
     governed by a regulatory agreement received a score of 20. As of July 2013, seven
     NASA Centers had agreements with Federal or state regulators governing various
     restoration projects (see Appendix C).

     When deciding which cleanup projects to fund, NASA also considers secondary factors,
     such as the level of political and public interest in a project. As a result, a project that
     receives a considerable amount of political and public attention may rank higher on the
     Agency’s priority list than a project that does not generate such attention, regardless of
     the relative potential impact of the contamination on human health or the environment.
     This dynamic was most apparent in the Agency’s cleanup efforts at Santa Susana. As we
     reported in February 2013, although NASA did not rank the Santa Susana site as its

     4
         NASA EMD, “Guidance for Implementation of Environmental Compliance and Restoration Program
         Requirements Defined in NASA Procedural Requirements 8590.1A,” April 2013. According to NASA
         Procedural Requirement 8553.1B, a “high-priority environmental aspect” is a NASA environmental
         aspect that shall be managed to (1) avoid or prevent a serious adverse environmental impact or (2) create
         a substantial beneficial environmental impact.



ii                                                                                          REPORT NO. IG-14-021
OVERVIEW



   highest risk to human health and safety, the Agency agreed to the most extensive and
   expensive restoration option under pressure from California politicians and nearby
   residents.5

   NASA’s estimate of more than $200 million to clean the site to background levels is
   more than two times the cost of restoring the land for residential use and more than eight
   times the estimated cost of restoring the site for recreational use.6 In our 2013 report, we
   questioned whether NASA’s agreement to clean the Agency’s portion of the Santa
   Susana site to background levels is the best use of NASA’s limited environmental
   remediation funds, particularly in light of the expected use of the property and the
   Agency’s need to address other higher-risk environmental issues. While to date the Santa
   Susana cleanup has had little impact on NASA’s ability to fund other restoration projects,
   the cleanup – coupled with NASA’s other environmental commitments and the fiscal
   constraints facing the Federal Government – will pose a tremendous challenge to the
   Agency in the coming years.7 Although NASA has developed a process to allocate
   restoration funds to address the most serious environmental hazards first, this process is
   susceptible to influences from public and political interests and legal agreements with
   regulators that may require the Agency to adjust its restoration priorities.

   Effectiveness of NASA’s Environmental Management Tracking System. As part of
   NASA’s environmental prioritization process, Center managers annually enter data into
   NETS to request funding for ongoing restoration projects and to enable NASA to
   estimate unfunded environmental liabilities for the Agency’s annual financial statements.
   Although NETS may be helpful for these limited purposes, we found that the varied ways
   in which the Centers use the system and inconsistencies in how Center officials enter
   information into the system led us to question whether NETS is a useful tool for
   managing restoration projects across the Agency.

   Centers reported that because NETS is limited in its ability to track and manage projects,
   they use it only to respond to the annual Headquarters data call. For example, White
   Sands officials reported using various databases to manage groundwater treatment
   program activities, a function not available in NETS. Centers’ use of NETS varied to




   5
       NASA Office of Inspector General, “NASA’s Environmental Remediation Efforts at the Santa Susana
       Field Laboratory” (IG-13-007, February 14, 2013).
   6
       Background level means returning the site to its natural state prior to the introduction of contaminants.
       Residential level assumes that an adult or child could live on the remediated site 24 hours per day,
       350 days per year, for 30 plus years. Recreational level assumes that an adult or child could be exposed
       several hours a day for about 50 days per year over a 30-year period without adverse health effects.
   7
       Based on the President’s fiscal year 2015 budget submission to Congress, NASA’s projected budget for
       the entire ECR Program for fiscal years 2016 and 2017 is about $153 million.



REPORT NO. IG-14-021                                                                                               iii
                                                                                        OVERVIEW



     such an extent that the information contained in the system could not generally be relied
     upon except for when the Centers updated the system in response to the annual
     Headquarters data call. In addition, we identified under- and over-counting of projects,
     which caused us to question the usefulness of NETS as an Agency-wide management
     tool.

     We also found that neither Headquarters nor the Centers timely updated the information
     in NETS, which makes the data incomplete and unreliable. For example, as of February
     2014, a Marshall Space Flight Center project with an estimated completion date of May
     2012 had a milestone status of “ongoing.” We also noted several projects with no
     milestone dates at all. We question the value of a system that contains such limited
     information.

     Promotion of Potential Cost-Sharing Opportunities. When NASA was established in
     1958, some of the property transferred to the new Agency by other Government agencies
     had existing environmental issues. However, we found a decided lack of interest on the
     part of EMD officials to encourage Centers to explore cost-sharing cleanup efforts with
     other agencies that may share responsibility for contamination on NASA sites. While we
     found that some NASA Centers engage in small-dollar cost-sharing activities, we remain
     concerned that the Agency is not maximizing opportunities to share the cost of expensive
     cleanup projects when liability for the contamination is shared. Given NASA’s limited
     environmental budget, we believe NASA should increase its efforts to pursue
     cost-sharing opportunities as a means of maximizing Agency restoration funding.

     Management Action

     To assist NASA in strengthening Agency environmental restoration efforts, we
     recommended that the Director of the Environmental Management Division revise
     Agency implementation guidance for scoring environmental restoration projects to clarify
     the methodology used and improve transparency in the scoring process; establish a
     mechanism at Headquarters to centrally track Agency- and Center-level agreements to
     ensure such agreements receive appropriate consideration in Agency funding and
     management decisions; expand NETS capabilities or develop an alternate system and
     require Centers to use NETS or the alternate system for tracking and reporting on
     restoration projects, require Centers and Headquarters to update the information in the
     system, and establish a process to periodically verify the accuracy and reliability of the
     data in the system; and strengthen Agency guidance to actively promote cost sharing
     when appropriate.

     In response to a draft of this report, NASA’s Associate Administrator for Mission
     Support concurred with our recommendations to clarify guidance for scoring
     environmental restoration projects, establish a mechanism to track Agency- and
     Center-level agreements, and strengthen Agency guidance to promote cost sharing when
     appropriate. The Associate Administrator partially concurred with our recommendation
     related to the NETS system, stating that by June 2015 NASA will establish a process to


iv                                                                          REPORT NO. IG-14-021
OVERVIEW



   periodically update NETS, populate the new fields, and verify the data. However, the
   Associate Administrator stated that because progress on projects does not change
   significantly over the period of a year, NASA plans to update the system only
   semiannually to coincide with the unfunded environmental liability review and Agency
   budget processes.

   We consider the corrective actions proposed by the Associate Administrator responsive
   to our recommendations and will close the recommendations upon completion and
   verification of those actions. We incorporated management’s technical comments on our
   draft into the final report, as appropriate. Management’s full response to the draft report
   is reprinted in Appendix D.




REPORT NO. IG-14-021                                                                             v
JULY 2, 2014




                                                          CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 7

   RESULTS
      NASA Faces Substantial Challenges in Managing Its
        Environmental Restoration Program ____________________ 8

   APPENDIX A
      Scope and Methodology _______________________________ 19
      Review of Internal Controls ____________________________ 21
      Prior Coverage ______________________________________ 21

   APPENDIX B
      FY 2013 Unfunded Environmental Liabilities by Center _______ 23

   APPENDIX C
      Centers with Cleanup Agreements with Regulators __________ 24

   APPENDIX D
      Management Comments ______________________________ 25

   APPENDIX E
      Report Distribution ___________________________________ 28




REPORT NO. IG-14-021
JULY 2, 2014




                                                                                      INTRODUCTION


Background

   Decades of rocket testing, research, and other activities by NASA and the Department of
   Defense (DOD) have resulted in significant environmental contamination at several
   NASA Centers and facilities involving substances, which in sufficient concentrations,
   research has shown to cause cancer, birth defects, developmental issues, and other serious
   ailments. Federal and state laws require NASA to clean up pollutants released into the
   environment from past activities and evaluate the environmental and safety impacts of
   current operations.

   The Environmental Management Division (EMD) manages NASA’s Environmental
   Compliance and Restoration (ECR) Program. Based at NASA Headquarters, EMD
   provides guidance on how to comply with Federal, state, and local environmental laws
   and regulations, while ECR Program officials sample, monitor, and oversee Agency
   restoration and cleanup efforts.8

   An EMD staff member is assigned to each NASA Center to act as a liaison between
   Headquarters and the Centers, as well as to be responsible for understanding and keeping
   up to date on environmental and cleanup issues at the Center, reviewing funding requests
   for new and existing restoration projects, and reviewing estimates for unfunded
   environmental liabilities. Center officials work with their respective EMD liaisons to
   identify environmental projects each year as part of the annual budget planning process.
   To facilitate the budget planning and project management process, Agency officials input
   information regarding funding requirements for environmental restoration projects into a
   database known as the NASA Environmental Tracking System (NETS). Officials also
   use NETS to estimate unfunded liabilities associated with environmental issues as part of
   NASA’s annual financial statements.9 As of April 2013, NETS included 142
   environmental projects at Headquarters, all nine Centers, the Jet Propulsion Laboratory
   (JPL), and four supporting facilities.10 These projects ranged from periodic monitoring of
   completed cleanup actions to ongoing restoration projects estimated to cost hundreds of
   millions of dollars.
   8
        NASA EMD, “Guidance for Implementation of Environmental Compliance and Restoration Program
        Requirements Defined in NASA Procedural Requirements 8590.1A,” April 2013.
   9
        Unfunded environmental liabilities are the amounts estimated but not yet funded to clean up
        environmental sites and the associated cost of operations, maintenance, and monitoring expected to take
        place over a 30-year period.
   10
        NASA’s organizational structure includes a Headquarters Office in Washington, D.C., nine Centers
        located across the country, the Jet Propulsion Laboratory (a federally funded research and development
        center), and supporting facilities, such as the White Sands Test Facility, Michoud Assembly Facility,
        Wallops Flight Facility, and the Santa Susana Field Laboratory. For purposes of this report, we use the
        generic term “Center” to refer to NASA’s Centers and related component facilities.


REPORT NO. IG-14-021                                                                                              1
                                                                                                     INTRODUCTION




    Federal Environmental Laws. Two of the most significant Federal laws governing
    environmental management responsibilities at Federal installations are the
    Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
    and the Resource Conservation and Recovery Act (RCRA). CERCLA, commonly
    known as Superfund, requires Federal agencies to investigate and clean up contamination
    at their facilities. The Environmental Protection Agency (EPA) designates for inclusion
    on a CERCLA National Priorities List (NPL) sites with significant contamination or that
    pose a threat of releasing hazardous substances, pollutants, or contaminants. Four NASA
    facilities are on the NPL: Marshall Space Flight Center (Marshall), Langley Research
    Center (Langley), Moffett Field at the Ames Research Center (Ames), and JPL.11 See
    Appendix C for more information on these sites.

    Federal agencies with facilities on the NPL are required to enter into an interagency
    agreement – sometimes called a Federal Facility Agreement – with the EPA to govern
    cleanup of a site. Affected states are often signatories to these agreements. For example,
    the Alabama Department of Environmental Management is a signatory to Marshall’s
    Federal Facilities Agreement with the EPA. EPA monitors the cleanup schedule and
    milestones for these sites to ensure proper and timely implementation and can impose
    penalties on agencies for noncompliance.

    RCRA governs Federal management of hazardous waste facilities and establishes an
    environmental corrective action program administered by the EPA. Under RCRA, the
    EPA may authorize states to serve as the lead regulatory agency on certain cleanup
    projects, allowing the states to specify the environmental cleanup requirements Federal
    agencies must meet. Under this authority, states may issue formal administrative actions,
    such as a compliance order or corrective action order requiring specified actions and
    milestones and providing for penalties for noncompliance.

    NASA’s Environmental Restoration Budget. NASA’s budget for cleaning
    contaminated sites is part of the Agency’s Construction and Environmental Compliance
    and Restoration appropriation. The ECR budget has two program elements:
    (1) Restoration and (2) Environmental Compliance and Functional Leadership. NASA
    described these elements in its fiscal year (FY) 2014 budget submission:
               Restoration projects address cleanup liabilities at all NASA Centers and component
               facilities . . . with many of the individual cleanup projects estimated to take more than 25
               years to complete. NASA policy is to address these liabilities using a “worst first”
               approach to ensure human health and the environment are protected and to facilitate
               mission readiness. . . . Projects are ranked according to the relative urgency and the
               potential health and safety hazards related to each individual cleanup. As studies,
               assessments, investigations, plans, regulatory approvals, and designs progress, and as
               new discoveries or regulatory requirements change, NASA expects that program
               priorities may change.


    11
         In addition, Dryden Flight Research Center (now known as Armstrong Flight Research Center) is a
         tenant of the Edwards Air Force Base, which is listed on the NPL.



2                                                                                            REPORT NO. IG-14-021
INTRODUCTION



              [Environmental Compliance and Functional Leadership projects] invest in environmental
              methods and risk reduction practices that ensure NASA may continue to carry out its
              scientific and engineering missions. This includes methodologies for sustainably
              reducing energy intensity and greenhouse gas emissions, and supporting operational
              activities by ensuring that advances in chemical risk management are incorporated early
              in mission design phases.

   As of September 30, 2013, NASA identified approximately $1.1 billion in unfunded
   environmental liabilities over the next 30 years (see Appendix B for FY 2013 unfunded
   environmental liabilities by Center).12 In preparing annual budget requests, Centers
   prepare and submit estimates of funding they will need to meet established milestones
   and commitments to their regulators for that fiscal year. NASA Headquarters personnel
   consolidate and review these submissions. The amount the Agency requests to fund
   environmental restoration programs fluctuates year-to-year depending on the work
   scheduled for completion during the covered period. NASA also frames its budget
   submission based on guidance from the Office of Management and Budget and Agency
   leaders on the funding level it may reasonably expect to receive given other budget
   priorities both within and outside NASA.

   Funding Levels for NASA’s Environmental Restoration Program. Over the last
   9 years, NASA’s environmental restoration program funding has fluctuated by as much
   as 41 percent. For example, in FY 2008, NASA received $76.5 million in ECR funding,
   a figure that decreased to $44.8 million in FY 2012. For FY 2013, the Agency requested
   $66.4 million for its environmental restoration projects and received $57 million. NASA
   spent approximately 92 percent ($52 million) of the $57 million on restoration projects,
   with the remaining 8 percent ($5 million) dedicated to Environmental Compliance and
   Functional Leadership projects. For FY 2014, NASA requested $75.5 million and
   received approximately $66.1 million. As shown in Figure 1, in each of the last 5 years,
   NASA has received somewhat less funding than requested for the Agency’s
   environmental restoration efforts.




   12
        NASA recognizes unfunded environmental liabilities in the Agency’s annual financial statements based
        on estimated cleanup costs associated with its environmental restoration projects over the next 30 years.
        These estimates and related supporting documentation are evaluated as part of NASA’s annual financial
        statements audit.



REPORT NO. IG-14-021                                                                                                3
                                                                                                      INTRODUCTION



                                            Figure 1: ECR Funding




    Note: The FY 2014 “amount received” is an estimate of what EMD expects to receive from the Construction and
    Environmental Compliance and Restoration appropriation.
    Source: NASA budget submissions.

    NASA’s ECR Program funds a variety of activities to clean up hazardous materials that
    have contaminated soil or groundwater at NASA installations. For example, in FY 2012,
    NASA received final license termination from the Nuclear Regulatory Commission for
    the completed decommissioning of the Plum Brook Reactor Facility. This action
    culminated 13 years of work to dispose of materials that remained at the facility after the
    reactor was shut down in 1973. The Plum Brook decommissioning cost more than
    $200 million and included demolishing the remaining structures and returning the site to
    green space. Currently NASA is funding a variety of restoration projects, including the
    remediation of groundwater pollution at Marshall that resulted from rocket engine testing
    and industrial operations, and in some cases production of munitions and chemicals prior
    to when NASA assumed control of the property; groundwater and soil contamination at
    Kennedy Space Center (Kennedy) resulting from polychlorinated biphenyl and
    trichloroethylene from launch and payload processing operations; and a solid waste
    disposal site at Ames.




4                                                                                            REPORT NO. IG-14-021
INTRODUCTION



   As Figure 2 depicts, four NASA facilities – JPL, the White Sands Test Facility (White
   Sands), the Santa Susana Field Laboratory (Santa Susana), and Kennedy – accounted for
   approximately 74 percent of NASA’s $57 million FY 2013 restoration budget. The
   contamination at JPL resulted from DOD and contractor waste disposal practices in the
   1940s and 1950s that left chemicals in the soil and groundwater. Similar groundwater
   contamination resulted from cleaning operations and propulsion testing performed at
   White Sands. NASA has constructed and is operating water treatment facilities at JPL
   and White Sands to protect the water supply of neighboring communities from the
   groundwater plumes that resulted from the contamination.13

                            Figure 2: Fiscal Year 2013 Center ECR Funding




   Note: On March 1, 2014, Dryden was renamed the Armstrong Flight Research Center.
   Source: EMD budget prioritization listing as of July 2013.




   13
        A groundwater plume is a volume of contaminated groundwater that extends downward and outward
        from a specific source.



REPORT NO. IG-14-021                                                                                    5
                                                                                                     INTRODUCTION



    Years of rocket testing for defense and space exploration by the U.S. Air Force and
    NASA at the NASA-administered portion of the Santa Susana site resulted in chemical
    contamination of soil and groundwater. In December 2010, NASA signed an
    Administrative Order of Consent with California officials agreeing to the most extensive
    and expensive option for cleaning contaminated soil at the site.14 Balancing the demands
    of this agreement against the Agency’s other high priority cleanup projects will be
    extremely challenging. Specifically, NASA anticipates spending more than $200 million
    between FYs 2016 and 2017 to remediate soil contamination at the site.15 However,
    NASA’s projected budget for the entire ECR Program for that 2-year period is only about
    $153 million. In past years, EMD has had sufficient funding to address the requirements
    of the legal agreements, as well as NASA’s highest risk projects; however, EMD officials
    said this will change if the Agency is required to meet the terms of the current Santa
    Susana agreement without a significant increase to its environmental restoration budget.

    Project Risk Analysis. EMD prioritizes restoration projects using a scoring system that
    considers the risks the site poses to human health and the environment, whether the
    contamination extends beyond the NASA site, and whether a legal agreement governs the
    project. Officials categorize and prioritize projects using a risk-based matrix that
    assesses the likelihood that an event will occur and the consequence of the event should it
    occur.16 Numerous factors go into the analysis of consequences and likelihood. For
    example, when analyzing consequences, EMD considers such factors as whether the
    project would eliminate a potential source of death or disabling injury, NASA faces a loss
    of mission or institutional capability as a result of the contamination, and significant
    sanctions are possible for failing to comply with a governing agreement. This analysis is
    then combined to obtain a composite score for consequence on a scale of 1 to 5, with
    5 signifying a very severe consequence.
    For likelihood, EMD assesses how likely NASA is to face the predicted consequence.
    Consequences deemed nearly certain to occur are scored a 5 for likelihood, while those
    deemed extremely unlikely to occur receive a 1. For example, if the Agency faces a sanction
    for noncompliance with a regulatory agreement but EMD managers believe it is highly
    unlikely the regulator would impose the sanction, the project would receive a likelihood score
    of 1. Generally, individual scores for likelihood and consequence are multiplied to derive a
    total score for each project, with the highest possible score being 25. EMD officials told us
    that in some instances the consequence score may be given greater weight, which produces a
    final score that differs from the score that would be derived from straight multiplication of
    the individual scores. Scores may also be adjusted to account for other factors, such as the
    level of public and political interest in a project.
    14
         NASA Office of Inspector General, “NASA’s Environmental Remediation Efforts at the Santa Susana
         Field Laboratory” (IG-13-007, February 14, 2013).
    15
         This estimate of more than $200 million is for the soil cleanup effort under the terms of the 2010
         Administrative Order of Consent. The figure does not include the cost of groundwater cleanup at the site
         to comply with a previous consent order.
    16
         The term consequence is used to denote the impact of a particular project, which in many instances is a
         negative impact. However, it can also be used to denote a benefit, such as if taking action would result in
         eliminating a potential source of substantial injury or providing a significant cost savings to the Agency.



6                                                                                           REPORT NO. IG-14-021
INTRODUCTION



   EMD starts funding from the top of the priority list working down the list until funding is
   exhausted. Accordingly, the higher ranked a project, the more likely it is to receive
   funding. Projects typically span multiple years, so funding needs and scores for
   individual projects may fluctuate from year to year depending on the work that needs to
   be accomplished. If higher-ranked projects require a greater share of the funding in a
   given year, less funding will be available for lower-ranked projects. Conversely, if
   higher-ranked projects require less funding in a given year, more of the lower-ranked
   projects would receive funding.

   At the time of our review, EMD officials reported that of the 88 restoration projects on
   NASA’s prioritization list for FY 2013 funding, 3 received the highest score of 25 and
   another 61 received scores between 20 and 23. Table 1 shows the full distribution of
   scores.
                 Table 1: Number of Projects at Each Prioritization Level
                                                                                      Number of Projects
                  Score                      Total Number of Projects
                                                                                    Subject to an Agreement
    25a                                                      3                                  3
    23b                                                     10                                 10
    22                                                       7                                  6
    20                                                      44                                  5
    19                                                       9                                  9
    18                                                       8                                  0
    below 18 or no score                                     7                                  6
    Total                                                   88                                 39
   Note: There may be more than one project associated with a contaminated site.
   a
     These projects are associated with the contamination at JPL and White Sands. NASA operates treatment facilities
   to protect the water supplies in neighboring communities.
   b
     These projects are associated with Santa Susana.
   Source: Data from NASA EMD.


Objectives

   Our objective was to examine the extent of NASA’s environmental restoration needs and
   the effectiveness of the Agency’s current activities to address those needs. Specifically,
   we reviewed whether NASA has an effective program for prioritizing and implementing
   environmental restoration projects and whether NASA is taking advantage of
   cost-sharing opportunities in those restoration efforts. Details of the audit’s scope and
   methodology are in Appendix A.




REPORT NO. IG-14-021                                                                                                   7
                                                                                                        RESULTS




                                   NASA FACES SUBSTANTIAL CHALLENGES IN
                                           MANAGING ITS ENVIRONMENTAL
                                                  RESTORATION PROGRAM

               NASA faces significant challenges to appropriately prioritize and manage the
               Agency’s environmental restoration projects with the limited funds available for this
               purpose. Since 2006, NASA has spent or budgeted an average of $62 million per
               year to address an estimated $1.1 billion in unfunded environmental liabilities. One
               project – the Santa Susana cleanup – has a fast approaching deadline and an
               associated cost that could consume NASA’s entire restoration budget. Moving
               forward, NASA will make limited progress in addressing its significant
               environmental cleanup responsibilities without an appropriately funded restoration
               program that effectively prioritizes the highest risk projects; monitors the status of
               those projects; and shares restoration costs with other entities, when appropriate.

NASA Faces Challenges with Project Prioritization
    NASA policy dictates the Agency prioritize environmental projects that (1) pose the
    greatest risk to human health or the environment, (2) are likely to proactively reduce risks
    to the environment, or (3) threaten neighboring property.17 In addition, as part of the
    prioritization process, EMD managers consider whether regulatory agreements govern a
    particular site. Consequently, projects governed by such agreements score higher than
    projects that may pose similar or more serious health risks but are not subject to such
    agreements. As of July 2013, seven NASA Centers had agreements with Federal or state
    regulators governing various restoration projects (see Appendix C).

    According to EMD, legal agreements with regulators can raise project scores by as many
    as 3 to 4 points. For example, a project at Ames to remediate a trichloroethylene plume
    in the groundwater that is subject to a Federal Facilities Agreement with the EPA
    received a score of 22. Ames operates a treatment system along the Center’s border to
    mitigate the migration of the plume onto Ames property. However, a project related to a
    trichloroethylene plume at Goddard Space Flight Center (Goddard) that is not governed
    by a regulatory agreement received a score of 20. In this instance, Goddard is monitoring
    the contamination to ensure it is not a significant risk. An EMD official confirmed the
    Ames project scored higher because of the existence of the legal agreement.




    17
         NASA EMD, “Guidance for Implementation of Environmental Compliance and Restoration Program
         Requirements Defined in NASA Procedural Requirements 8590.1A,” April 2013. Also, according to
         NASA Procedural Requirement (NPR) 8553.1B, a “high-priority environmental aspect” is a NASA
         environmental aspect that shall be managed to (1) avoid or prevent a serious adverse environmental
         impact or (2) create a substantial beneficial environmental impact.



8                                                                                        REPORT NO. IG-14-021
RESULTS



   In another case, Johnson Space Center (Johnson) is working to contain trichloroethylene
   and other chemicals in groundwater on the Center from reaching a baseball field near its
   property boundary. As this project is not subject to an agreement or order with
   regulators, it scored an 18 on EMD’s risk matrix. However, a groundwater project at
   Marshall that is not considered a significant risk to Marshall employees or the public
   scored a 19 because the site is listed on the NPL. According to EMD officials, while the
   Marshall project is significantly larger than the Johnson project, an EMD official
   confirmed that Marshall’s project scored higher than it otherwise would have because of
   its inclusion on the NPL.

   Center officials have broad authority to negotiate the details of cleanup agreements, and
   the respective Center Directors sign the agreements committing the Agency to the
   requirements. Since 2011, NASA has required Headquarters’ approval of these
   agreements prior to Center Director signature.18 However, many of the agreements cover
   work that will span a number of years, with the full cost not known until well after the
   agreement is signed. Because of the legal implications of these agreements, they must be
   considered in the prioritization process. Nevertheless, the agreements generally reflect
   the priorities of the respective regulator or the public’s priority for a particular site, and
   therefore may not fully align with the overall priorities of NASA. Although all of the
   projects discussed previously received funding in FY 2013, going forward EMD officials
   must carefully monitor regulatory agreements to manage their impact on NASA’s
   environmental restoration budget. If not appropriately tracked across the Agency, these
   agreements have the potential to threaten funding for projects that although not subject to
   legal agreements have greater potential to affect human health and the environment.

   Secondary factors like the level of political and public interest in a project can also
   influence the order in which projects are funded. As we previously reported, political and
   public interests played a significant role in NASA’s agreement to clean up contaminated
   groundwater at the Santa Susana site, resulting in the project scoring higher on NASA’s
   priority list than it otherwise would have. In August 2007, NASA, Boeing, and the
   Department of Energy signed consent orders with California agreeing to clean up
   groundwater and soil at the facility to residential exposure levels.19 However, due to
   negative reactions from members of the local community and political pressure, in
   December 2010, NASA signed a more restrictive Administrative Order of Consent under
   which the Agency agreed to the most extensive and expensive option for cleaning the
   contaminated soil.20


   18
        NASA Procedural Requirement “8590.1A, NASA Environmental Compliance and Restoration
        Program,” July 2011.
   19
        Residential exposure level assumes that an adult or child could live on the remediated site 24 hours a day,
        350 days per year for 30 years without adverse health impacts.
   20
        In April 2013, subsequent to release of our February 2013 report, California environmental officials sent
        a letter to the Mayor of the City of Simi Valley near the Santa Susana site stating “[t]o date we have not
        found evidence of off-site contamination from SSFL [Santa Susana Field Laboratory] that would pose a
        risk to human health or the environment.”



REPORT NO. IG-14-021                                                                                                  9
                                                                                                              RESULTS



     NASA’s estimate of more than $200 million to clean the Santa Susana site to background
     levels is more than two times the cost of restoring the land for residential use and more
     than eight times the estimated cost of restoring the site for recreational use.21 In our
     2013 report, we questioned whether NASA’s agreement to clean its portion of the site to
     background levels is the best use of NASA’s limited environmental remediation funds,
     particularly in light of the expected use of the property and the Agency’s need to address
     other higher-risk environmental issues. While to date the Santa Susana cleanup has had
     little impact on NASA’s ability to fund other restoration projects, that cleanup – coupled
     with NASA’s other environmental commitments and the fiscal constraints facing the
     Federal Government – will pose a tremendous challenge to the Agency in the coming
     years.22 Although NASA has developed a process to allocate restoration funds to address
     the most serious environmental hazards first, this process is susceptible to influences
     from public and political interests and legal agreements with regulators that may require
     the Agency to adjust restoration priorities.

     EMD officials support the need to adjust project prioritization scores to account for
     various factors, such as when management increases the consequence score or due to the
     level of public and political interest in a project. However, EMD officials also
     acknowledge that improved transparency is necessary to ensure changes to project scores
     are documented and tracked, including when management or political interest result in
     adjustments, regardless of the reason for the change.

NASA Lacks an Effective Environmental Management Tracking
 System
     The NASA Environmental Tracking System (NETS) was originally created to support
     the reporting and management of environmental projects across the Agency, allow
     Centers to request funding for restoration projects, and enable NASA to track unfunded
     environmental liabilities. However, the questionable reliability of NETS data and the
     system’s limited utility as a project management tool means NETS is ill-equipped to
     serve as an effective overall management tool for Agency officials responsible for
     making funding and other programmatic decisions about environmental restoration
     projects. As a result, EMD officials depend on other, informal means of obtaining
     information about environmental projects.

     Reliability of NETS Data. As part of NASA’s environmental prioritization process,
     Center managers annually enter data in NETS to request funding for ongoing restoration
     projects and enable the Agency to estimate unfunded environmental liabilities for its
     annual financial statements. Although NETS may be helpful for these limited purposes,

     21
          Background level means returning the site to its natural state prior to the introduction of contaminants.
          Residential level assumes that an adult or child could live on the remediated site 24 hours per day,
          350 days per year, for 30 plus years. Recreational level assumes that an adult or child could be exposed
          several hours a day for about 50 days per year over a 30-year period without adverse health effects.
     22
          Based on the President’s FY 2015 budget submission to Congress, NASA’s projected budget for the
          entire ECR Program for FYs 2016 and 2017 is about $153 million.



10                                                                                            REPORT NO. IG-14-021
RESULTS



   we found that the varied ways in which the Centers use the system and inconsistencies in
   how Center officials enter information into the system led us to question whether NETS
   is a useful tool for managing restoration projects across the Agency.

   Using a standardized questionnaire, we asked each Center how it prioritized and reported
   restoration projects in NETS and compared the Center-reported data with information in
   the system. We identified under- and over-counting of projects that caused us to question
   NETS’ usefulness as a management tool. For example, the Centers reported in response
   to the questionnaire 185 projects, while NETS showed only 142 (as shown in Table 2).

                       Table 2: Differences in Restoration Projects Reported
                                                         Reported by           Reported in            Project
    Center
                                                           Centers               NETS                Difference
    Ames Research Center                                      6                    10                    -4
    Dryden Flight Research Center                             1                     2                    -1
    Glenn Research Center                                     8                    11                    -3
    Goddard Space Flight Center                               1                     2                    -1
    Jet Propulsion Laboratory                                 3                     4                    -1
    Johnson Space Center                                      2                     2                     0
    Kennedy Space Center                                    111                    47                    64
    Langley Research Center                                   6                     7                    -1
    Marshall Space Flight Center                              9                     9                     0
    Michoud Assembly Facility                                 7                     8                    -1
    Stennis Space Center                                      9                     9                     0
    Wallops Flight Facility                                  12                    14                    -2
    White Sands Test Facility                                10                    17                    -7
    Total                                                   185                   142                    43
   Note: This table does not include data from Headquarters and Santa Susana Field Laboratory. On March 1, 2014,
   Dryden was renamed the Armstrong Flight Research Center.
   Source: Center data call responses and NETS data.

   The difference between those projects reported by the Centers, as compared to NETS, is
   generally the result of Centers separating out phases of a single project or consolidating
   several smaller efforts into one project. For example, Kennedy reported 111 projects in
   response to our questionnaire while NETS listed only 47 projects at the Center. Kennedy
   personnel explained that the difference was due, in part, to the grouping of long-term
   projects for reporting in NETS. Similarly, White Sands reported 10 projects in response
   to our data call while NETS listed 17 projects. White Sands personnel explained that
   they further combined and reduced their projects from 10 to 7 after our initial data call.
   While the number of projects in NETS at year-end should be an accurate reflection of
   Center project activity, the differences noted in Table 2 illustrate the difficulty of using
   the system to inform Headquarters management decisions throughout the year. EMD
   officials acknowledged that project data changes throughout the year and that these
   changes are not consistently reflected in NETS. Officials said they rely on Center
   liaisons to provide up-to-date information about projects, rather than relying solely on
   NETS.


REPORT NO. IG-14-021                                                                                               11
                                                                                                          RESULTS



     We also found that neither the Centers nor Headquarters fully utilized or timely inputted
     data into NETS. For example, the status of a Marshall project showing an estimated
     completion date of May 2012 had not been updated as of February 2014, almost 2 years
     later. We also noted that some projects had no milestones identified in the system, which
     would make it difficult for Headquarters to make funding decisions. Additionally, other
     fields in NETS appeared to be either infrequently or never used, including a “[Potentially
     Responsible Party] Determination Completed” field and an “EMD Approval” field to
     validate specific milestones. EMD personnel told us that they have been working to
     expand NETS’ capabilities so it is a work in progress and was not being fully utilized at
     the time of our audit fieldwork. That said, we question the usefulness of a system
     containing such limited and unreliable information.

     Utilization of NETS. We found that neither Headquarters nor the Centers consistently use
     NETS information throughout the year to manage and track restoration projects. The NETS
     database captures information, such as cost and risk score, as well as data about other NASA
     programs, such as energy, water, and cultural resource management.23 While EMD
     Headquarters officials told us that NETS was developed to assist with Center project
     management efforts, Center officials said they used the database sparingly and primarily to
     meet annual reporting requirements.

     When we asked EMD officials about the Centers limited use of NETS, they said the
     system is unable to do much more than collect data about the number of projects, funding
     requests, and risk scores. EMD officials acknowledged that NETS’ capabilities do not
     meet Center project management needs and that the system cannot be used to manage
     restoration projects. For example, White Sands officials reported using various databases
     to manage groundwater treatment program activities, a function not available in NETS.
     Table 3 provides a sample of comments from Center officials related to their utilization
     of NETS.




     23
          Cultural resource management is a program that employs personnel to identify, evaluate, and preserve
          cultural and historic resources encountered at planned construction projects or existing facilities.



12                                                                                         REPORT NO. IG-14-021
RESULTS



                          Table 3: Centers Comments on Utilization of NETS
              Centers                                             Utilization of NETS
    Glenn Research Center                   Does not use NETS except for annual data call
    Goddard Space Flight                    Uses NETS to manage the project planning and limited support
    Center                                  in tracking project cost
    Kennedy Space Center                    Uses NETS and Center specific system to manage projects
    Marshall Space Flight Center            Does not use NETS except for annual data call
    Wallops Flight Facility                 Uses NETS to manage the project planning and limited support
                                            in tracking project cost
   Source: NASA Office of Inspector General data call.

   Similarly, officials at Marshall and Glenn reported using NETS only to respond to the
   annual Headquarters data call and not to manage or track restoration projects. Goddard
   and Wallops Flight Facility officials said that while they use NETS to help manage
   project planning, the system has limited capability to track project costs. Kennedy
   officials said they use NETS and a Center-developed spreadsheet to manage their
   cleanup projects.

   We believe that the inclusion of additional fields in NETS, such as milestones and
   Headquarters approval of certain milestones, if appropriately used by Headquarters
   and the Centers, are a step in the right direction. However, due to the questionable
   accuracy of NETS data and limited utilization of the system by Centers, we question how
   decision makers at Headquarters can effectively manage NASA’s overall restoration
   budget without an Agency-wide system that provides reliable data throughout a project’s
   life cycle.

NASA Does Not Promote Use of Potential Cost-Sharing
 Opportunities

   When NASA was created in 1958, property from other Government agencies – including
   some with existing environmental issues – was transferred to the new Agency. We found
   that NASA does not aggressively pursue cost-sharing arrangements for cleanup projects
   with other entities who may share responsibility for contamination at NASA installations.
   EMD officials said that prior attempts by NASA to cost share have had limited success. In
   addition, they expressed the opinion that because funding for all Federal environmental
   restoration projects comes from the U.S. Treasury it does not matter which agency funds the
   project. As a result, NASA sometimes uses its funds to remediate contamination the
   Agency did not cause. This reduces the funding available to address other environmental
   restoration efforts for which the Agency has primary responsibility.




REPORT NO. IG-14-021                                                                                       13
                                                                                                       RESULTS



     Laws and Guidance. NASA policy defines cost sharing as “sharing expenses related to
     contemplated remedial activities or the sharing of the work in performing remedial
     activities.”24 Federal law and NASA guidance require Centers to identify potentially
     responsible parties that could share responsibility for cleaning up contamination.
     However, NASA’s guidance does not require Centers to pursue those parties to share in
     cleanup costs. According to NASA policy, Centers are to evaluate the potential for
     cost-sharing or cost‐recovery arrangements with potential responsible parties and, if such
     opportunities exist, forward this information to EMD and NASA Headquarters Office of
     Procurement.25 EMD and Procurement have 30 days to approve cost sharing for the
     project. After receiving Headquarters approval, the Centers take responsibility for
     negotiating potential cost-sharing agreements and any such agreements are tracked solely
     at the Center level.

     Previous Attempts at Cost Sharing. According to EMD officials, NASA is reluctant to
     pursue cost sharing on many of its projects. EMD officials told us that some past efforts
     to cost share were largely unsuccessful. Further, they expressed the view that because all
     Federal cleanup projects are funded through the U.S. Treasury, whether NASA or another
     agency finances the project is insignificant. Lastly, EMD officials informed us that
     NASA is reluctant to seek cost-sharing agreements because it could find itself in
     litigation with other agencies for years over the issue of responsibility.

     In one example, the U.S. Navy and NASA disagreed on aspects of the cleanup associated
     with Hangar One near Ames, and ultimately, the Office of Management and Budget
     settled the dispute.26 In another case, NASA identified DOD as a potential responsible
     party for soil and groundwater contamination at JPL. However, after discussions with
     DOD, Agency officials decided that because NASA had occupied the property for more
     than 40 years NASA was responsible for facility maintenance, including environmental
     cleanup and compliance. Therefore, NASA did not pursue a cost-sharing agreement for
     this project.

     Current Cost-Sharing Efforts. Despite the position of Headquarters EMD officials that
     little can be gained from pursuing cost sharing, we identified several Centers that have
     entered into such agreements on a variety of cleanup projects. For example, some of the
     contamination on Marshall property was caused by U.S. Army activities prior to
     Marshall’s existence. Marshall coordinates with the Army to clean up contaminants at

     24
          NASA Procedural Requirement “8590.1A, NASA Environmental Compliance and Restoration
          Program,” July 2011.
     25
          NASA EMD, “Guidance for Implementation of Environmental Compliance and Restoration Program
          Requirements Defined in NASA Procedural Requirements 8590.1A,” April 2013.
     26
          NASA Office of Inspector General, “NASA’s Hangar One Re-Siding Project” (IG-11-020,
          June 22, 2011). Even though the U.S. Navy transferred the area of Moffett Field adjacent to Ames to
          NASA in 1994, it retained responsibility for environmental restoration of the site. In 2002, NASA
          discovered that contaminants in the skin of the Hangar were leaking. The Navy and NASA disagreed on
          which agency should be responsible for residing the hangar. In 2010, the Office of Management and
          Budget ruled that the Navy would pay for the environmental cleanup but NASA would need to pay to
          reside the hangar.



14                                                                                      REPORT NO. IG-14-021
RESULTS



   several locations on the Center.27 Further, since early FY 2006, Stennis Space Center
   (Stennis) has engaged in a small cost-sharing agreement with the U.S. Air Force to
   address contaminated drums and other debris the Air Force disposed of on the Center.
   The contents of the drums combined with trichloroethylene from earlier NASA
   operations contaminated groundwater at the site. Under terms of the agreement, the Air
   Force will provide Stennis $120,000 over the next 20 years for restoration efforts.
   Stennis personnel told us they followed EMD guidance and obtained NASA
   Headquarters concurrence before engaging in this cost-sharing arrangement. These
   examples illustrate that NASA Centers can and do engage in cost-sharing efforts that
   contribute to more effective utilization of ECR restoration funds. Both types of
   agreements are consistent with NASA’s cost-sharing guidance, which promotes the
   identification of other potentially responsible parties to ensure the most cost-effective
   restoration efforts both in the sharing of work and funding.

   Some Centers utilize what EMD refers to as “resource sharing” to further their restoration
   efforts while also maximizing available resources. Resource sharing involves utilizing
   another agency’s environmental restoration contract and contractors to accomplish
   NASA’s restoration efforts. For example, Langley uses U.S. Navy contracts and
   contractors to perform the majority of restoration work at the Center. According to EMD
   officials, this type of effort allows NASA to complete restoration efforts more efficiently
   since the other agency has an existing contract and the work can be performed for NASA
   on a reimbursable basis. EMD officials acknowledged that resource sharing is not
   discussed in their policies or guidance, and efforts to encourage Centers to look for
   opportunities or share existing opportunities have primarily been through verbal
   communications.

   In sum, while we recognize the difficulties NASA has experienced in past attempts to
   seek cost sharing for environmental restoration work, the current budget climate and the
   scope of NASA’s unfunded environmental liabilities necessitate that the Agency attempt
   to share cleanup costs whenever possible. While several Centers are currently utilizing
   cost or resource-sharing agreements, we are concerned that the apparent lack of
   recognition, advocacy, and general interest on the part of EMD officials to promote such
   agreements may discourage Centers from pursuing these potentially valuable
   opportunities.




   27
        Marshall’s property, owned by the U.S. Army, is located within Redstone Arsenal’s boundaries.
        Marshall and the Redstone Arsenal are located in Huntsville, Alabama.



REPORT NO. IG-14-021                                                                                    15
                                                                                           RESULTS



Conclusion

     NASA is required by law to clean up chemicals and other contaminants released into the
     environment on Agency property and as a result of Agency activities. These
     responsibilities necessitate that NASA effectively prioritize its cleanup projects to
     efficiently utilize the Agency’s limited environmental restoration budget. While NASA
     has developed a process to allocate restoration funds to address the most serious
     environmental hazards first, this process is susceptible to influences from public and
     political interests and legal agreements with regulators, which may not be in the best
     interest of the Agency as a whole. In particular, if NASA moves forward under the terms
     of its current agreement with California officials to clean up the Santa Susana site, other
     projects with a higher risk to human safety may not receive necessary funding.

     Furthermore, as part of the Agency’s annual risk prioritization process, NASA Centers
     are required to input data for their environmental restoration project requirements into the
     NETS database. We identified significant issues with the accuracy of the data in NETS
     that caused us to question the usefulness of the system as a management tool and
     oversight mechanism for Headquarters.

     Finally, we found a decided lack of interest on the part of EMD officials to encourage
     Centers to explore cost-sharing cleanup efforts with other agencies. While we found that
     some NASA Centers engage in small-dollar cost-sharing activities, we remain concerned
     that the Agency is not maximizing opportunities to share the cost of expensive cleanup
     projects when liability for the contamination is shared. Given NASA’s limited
     environmental budget, we believe NASA should increase its efforts to pursue
     cost-sharing opportunities as a means of maximizing Agency restoration funding.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response
     To assist NASA in strengthening its environmental restoration efforts, we are making the
     following recommendations to the Director of the Environmental Management Division:

     Recommendation 1. Revise Agency implementation guidance for NPR 8590.1A for
     scoring environmental restoration projects to clarify the methodology used and improve
     transparency in the scoring process.

        Management’s Response. The Associate Administrator for Mission Support
        concurred with our recommendation, stating that by June 2015 NASA will reevaluate
        and revise its guidance to clarify the process by which projects are prioritized for
        funding and improve the transparency of funding decisions.

        Evaluation of Management’s Response. Management’s comments are responsive;
        therefore, the recommendation is resolved and will be closed upon verification and
        completion of the proposed corrective actions.



16                                                                           REPORT NO. IG-14-021
RESULTS



   Recommendation 2. Establish a mechanism at Headquarters to centrally track Agency
   and Center-level agreements to ensure such agreements receive appropriate consideration
   in Agency funding and management decisions and strengthen communication between
   Headquarters and the Centers about the agreements.

      Management’s Response. The Associate Administrator concurred with our
      recommendation, stating that by June 2015 NASA will revise NETS to include a
      repository for all Agency- and Center-level enforceable agreements related to
      cleanup. NASA will also revise its guidance on prioritization to explain how
      enforceable agreements are used in deriving preliminary scoring decisions and ensure
      that enforceable agreements are approved by NASA Headquarters, as required.

      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and will be closed upon verification and
      completion of the proposed corrective actions.

   Recommendation 3. Expand NETS capabilities or develop an alternate system and
   require Centers to use NETS or the alternate system for tracking and reporting on
   restoration projects, require Centers and Headquarters to update the information in the
   system either monthly or quarterly, and establish a process to periodically verify the
   accuracy and reliability of the data in the system.

      Management’s Response. The Associate Administrator partially concurred with our
      recommendation, stating that by June 2015 NASA will establish a process to
      periodically update NETS, populate the new fields, and verify the data and will
      include the revised process in the implementation guidance for NPR 8590.1. The
      Associate Administrator further stated that because progress on projects does not
      change significantly over the period of a year, the Agency plans to update NETS only
      semiannually to coincide with the unfunded environmental liability review and
      Agency budget processes.

      Evaluation of Management’s Response. Although the Agency plans to update
      NETS less frequently than we suggested, we appreciate that management has agreed
      to place a priority on ensuring that NETS data is current and accurate and, in light of
      the other actions NASA is taking, we believe that semiannual updates should be
      sufficient to maintain data integrity. Accordingly, we consider management’s
      comments to be responsive and the recommendation is resolved and will be closed
      upon verification and completion of the proposed corrective actions.




REPORT NO. IG-14-021                                                                            17
                                                                                       RESULTS



     Recommendation 4. Strengthen NPR 8590.1A and EMD implementation guidance to
     actively promote cost sharing when appropriate. The revised guidance should also define
     and promote resource-sharing opportunities and provide a process for disseminating
     information about resource sharing opportunities among Centers.

        Management’s Response. The Associate Administrator concurred with our
        recommendation, stating that by June 2015 NASA will revise its guidance to clarify
        the definition of “cost sharing” and promote the idea of “resource sharing” between
        NASA Centers and with other agencies. NASA will also evaluate the Potentially
        Responsible Party – “cost sharing” – language in NPR 8590.1 as part of the next
        scheduled update of the NPR in 2016.

        Evaluation of Management’s Response. Management’s comments are responsive;
        therefore, the recommendation is resolved and will be closed upon verification and
        completion of the proposed corrective actions.




18                                                                        REPORT NO. IG-14-021
APPENDIXES




                                                                          APPENDIX A


Scope and Methodology

   We performed this audit from March 2013 through June 2014 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives. Our objectives included examining the extent of NASA’s
   environmental restoration needs and the effectiveness of the Agency’s current activities
   to address those needs.

   We performed work at Marshall Space Flight Center, including meeting with the
   environmental project manager for Michoud Assembly Facility, and with NASA
   Headquarters’ Environmental Division. We also issued a data call questionnaire
   requesting information about their overall environmental restoration program, including
   how the Centers prioritize and implement environmental projects and whether NASA is
   taking advantage of cost-sharing opportunities. We issued this questionnaire to the
   following NASA Centers and component facilities:

         Ames Research Center
         Dryden Flight Research Center (known as the Armstrong Flight Research Center
          as of March 1, 2014)
         Glenn Research Center
         Goddard Space Flight Center
         Jet Propulsion Laboratory
         Johnson Space Center
         Kennedy Space Center
         Langley Research Center
         Stennis Space Center
         Wallops Flight Facility
         White Sands Test Facility




REPORT NO. IG-14-021                                                                           19
                                                                                      APPENDIX A



     We interviewed representatives from NASA Headquarters EMD Division and NASA’s
     legal counsel. We reviewed each Center’s response to the data call questionnaire and
     subsequently identified four Centers for additional follow-up questions:

           Jet Propulsion Laboratory
           Kennedy Research Center
           Stennis Space Center
           White Sands Test Facility

     We held additional meetings with the four identified Centers and reviewed their
     respective environmental resource document, FY 2013 project listing, FY 2013 Center
     briefing document to Headquarters, and other various documents provided by the
     Centers. In addition, we reviewed NASA EMD’s FYs 2012 and 2013 Unfunded
     Environmental Liability Data Call; EMD’s Planning, Programming, Budgeting, and
     Execution Data Call; EMD’s FY 2013 Project List; EMD’s Environmental, Compliance,
     and Restoration Guidance; and NETS data.

     Criteria. We reviewed Federal and state laws, NASA environmental policies,
     regulations, and procedures to determine the requirements, criteria, and processes for
     assessing environmental restoration cleanup. The documents reviewed included the
     following:

           NPD 8500.1B, “NASA Environmental Management,” December 20, 2007
           NPR 8553.1B, “NASA Environmental Management System,”
            September 22, 2009
           NPR 8590.1A, “NASA Environmental Compliance and Restoration Program,”
            July 18, 2011
           NPR 8800.15B, “Real Estate Management Program,” June 21, 2010
           NPR 9090.1A, “Reimbursable Agreements” February 25, 2013
           NPR 9260.1, “Revenue, Unfunded Liabilities and Other Liabilities,” September
            30, 2008
           National Environmental Policy Act of 1969 (NEPA), January 1, 1970
           Comprehensive Environmental Response, Compensation, and Liability Act
            (CERCLA), December 11, 1980
           Resource Conservation and Recovery Act (RCRA), October 21, 1976




20                                                                          REPORT NO. IG-14-021
APPENDIX A



   Use of Computer-Processed Data. We used computer-processed data to perform
   portions of this audit. We collected computer-processed data from the NASA Centers in
   the form of their responses on the data call, environmental resource documents, FY 2013
   project listings, FY 2013 Center briefing documents to Headquarters, EMD’s funded FY
   2013 Project List, and information from NASA’s Environmental Tracking System.
   Specifically, we compared the Center’s reported number of projects and cost with EMD’s
   FY 2013 Project List and NETS’s FY 2013 final numbers. For our audit objectives, we
   reviewed the data to compare and validate projects data reported by the Centers for
   FY 2013 with NASA’s NETS system data, and EMD’s FY 2013 Project List in order to
   conclude the accuracy and effectiveness of reporting NASA’s Environmental Restoration
   program. However, we did not rely solely on the computer-processed data to support our
   findings, conclusions, or recommendations. As discussed in this report, we found that the
   data in NETS was not reliable for our purposes.

Review of Internal Controls

   We reviewed and evaluated the internal controls associated with identifying, prioritizing,
   and implementing NASA’s environmental restoration program. Our review included a
   review and evaluation of the oversight and guidance provided by EMD to the Centers for
   this program. We also reviewed the internal controls associated with the processes used
   by NASA Headquarters to prioritize Center environmental projects for funding. We
   found deficiencies in these areas, as discussed in this report.

Prior Coverage

   During the past several years, the NASA Office of Inspector General (OIG) and the
   Government Accountability Office (GAO) have issued 12 reports of particular relevance
   to the subject of this report. Unrestricted reports can be accessed over the Internet at
   http://oig.nasa.gov/ (NASA OIG) and at http://www.gao.gov (GAO).

   NASA Office of Inspector General

   “Cost Sharing for Santa Susana Field Laboratory Cleanup Activities” (IG-98-024,
    August 18, 1998)
   “Cost Sharing for Environmental Cleanup Efforts” (IG-01-007, December 8, 2000)

   “Audit of the National Aeronautics and Space Administration’s Fiscal Year 2009
    Financial Statements” (IG-10-002, November 13, 2009)
   “Audit of the National Aeronautics and Space Administration’s Fiscal Year 2010
    Financial Statements” (IG-11-006, November 15, 2010)
   “NASA’s Hanger One Re-Siding Project” (IG-11-020, June 22, 2011)




REPORT NO. IG-14-021                                                                            21
                                                                                  APPENDIX A



     “NASA’s Environmental Remediation Efforts at the Santa Susana Field Laboratory”
      (IG-13-007, February 14, 2013)
     Government Accountability Office

     “Environmental Cleanup Costs: NASA is Making Progress in Identifying Contamination,
      but More Effort Is Needed” (GAO/NSIAD-97-98, June 27, 1997)
     “Military Base Closures: Overview of Economic Recovery, Property Transfer, and
      Environmental Cleanup, Statement of Barry W. Holman, Director, Defense Capabilities
      and Management” (GAO-01-1054T, August 28, 2001)
     “Military Base Closures: Opportunities Exist to Improve Environmental Cleanup Cost
      Reporting and to Expedite Transfer of Unneeded Property” (GAO-07-166,
      January 30, 2007)
     “NASA: Agency Faces Challenges Defining Scope and Costs of Space Shuttle Transition
      and Retirement” (GAO-08-1096, September 30, 2008)
     “Environmental Contamination: Information on the Funding and Cleanup Status of
      Defense Sites, Statement of Anu Mittal, Director Natural Resources and Environment”
      (GAO-10-547T, March 17, 2010)

     “Superfund: Interagency Agreements and Improved Project Management Needed to
      Achieve Cleanup Progress at Key Defense Installations” (GAO-10-348, July 15, 2010)




22                                                                      REPORT NO. IG-14-021
APPENDIX B




                                                                           FY 2013 UNFUNDED
                                                                               ENVIRONMENTAL
                                                                         LIABILITIES BY CENTER

   The following table shows the amount of unfunded environmental liabilities for each
   Center and component installation.

                                                              Unfunded Environmental Liability
                         Center
                                                                   (dollars in thousands)
       Ames Research Center                                                                         $29,326
       Dryden Flight Research Centera                                                                 6,473
       Glenn Research Center                                                                         14,118
       Goddard Space Flight Center                                                                      572
       Jet Propulsion Laboratory                                                                     89,710
       Johnson Space Center                                                                           1,116
       Kennedy Space Center                                                                         129,940
       Langley Research Center                                                                        7,415
       Michoud Assembly Facility                                                                     72,026
       Marshall Space Flight Center                                                                 136,326
       Stennis Space Center                                                                          12,747
       Santa Susana Field Laboratory                                                                308,467
       Wallops Flight Facility                                                                        5,791
       White Sands Test Facility                                                                    256,206
       Headquarters                                                                                  39,579
       Total                                                                                     $1,109,812
   a
    On March 1, 2014, Dryden Flight Research Center was renamed the Armstrong Flight Research Center.
   Source: Unfunded liabilities as of September 30, 2013, pulled from NETS on October 29, 2013 and verified by
   the Office of the Chief Financial Officer.




REPORT NO. IG-14-021                                                                                             23
                                                                                                       APPENDIX C




                                                                        CENTERS WITH CLEANUP
                                                                                 AGREEMENTS

     The following table describes the various cleanup agreements that some Centers have
     with their applicable regulators.

                         National           Type of Agreements             Description of Environmental
         Center
                       Priorities List            – Date                               Issues
                                                                         Soil and groundwater contaminated
      Marshall                              Federal Facility
                                                                         with metals, polychlorinated biphenyls,
      Space Flight     Yes                  Agreement – signed
                                                                         and volatile organic compounds
      Center                                September 17, 2001
                                                                         including trichloroethylene
      Langley                               Federal Facility             Soil and groundwater contaminated
      Research         Yes                  Agreement – signed           with polychlorinated biphenyls and
      Center                                December 16, 1993            polychlorinated triphenyls
      Ames                                  Unilateral Administrative    Soil contaminated with polychlorinated
                       Yes (Moffett
      Research                              Order – signed March         biphenyls, lead, chromium, cadmium,
                       Field)
      Center                                15, 2013                     and zinc
                                            Administrative Order on      Soil and groundwater contaminated
      Santa Susana
                                            Consent for Remedial         with trichloroethylene, metals, and
      Field            No
                                            Action – signed December     dioxins. Soil cleanup set to be
      Laboratory
                                            6, 2010                      completed by 2017
                                                                         Soil contaminated with metals, volatile
                                            Administrative Order on
      Wallops Flight                                                     organic compounds, and semi-volatile
                       No                   Consent – signed
      Facilities                                                         organic compounds; groundwater
                                            September 28, 2004
                                                                         contaminated with lead and chromium
                                            Federal Facility
                                            Agreement – signed
                                            December 23, 1992; and       Contamination to groundwater includes
      Jet Propulsion
                       Yes                  legal agreement between      trichloroethylene, carbon tetrachloride,
      Laboratory
                                            JPL/Caltech, and two         and perchlorate
                                            local water boards –
                                            signed January 30, 2006
                                            Final Order to issue a       Contamination to groundwater includes
      White Sands                           final Hazardous Waste        n-nitrosodimethylamine,
                       No
      Test Facility                         Permit – signed              trichloroethylene, Freon, and other
                                            November 3, 2009             volatile organic compounds
     Source: Data provided by NASA’s EMD.




24                                                                                         REPORT NO. IG-14-021
APPENDIX D




                       MANAGEMENT COMMENTS




REPORT NO. IG-14-021                         25
             APPENDIX D




26   REPORT NO. IG-14-021
APPENDIX D




REPORT NO. IG-14-021   27
                                                                                  APPENDIX E




                                                             REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Associate Administrator
     Chief of Staff
     Executive Officer
     Chief Financial Officer
     General Counsel
     Associate Administrator for Mission Support Directorate
     Assistant Administrator for the Office of Strategic Infrastructure
     Director, Environmental Management Division
     Director, Ames Research Center
     Director, Armstrong Flight Research Center
     Director, Glenn Research Center
     Director, Goddard Space Flight Center
     Director, Wallops Flight Facility
     Director, Jet Propulsion Laboratory
     Director, Johnson Space Center
     Site Manager, White Sands Test Facility
     Director, Kennedy Space Center
     Director, Langley Research Center
     Director, Marshall Space Flight Center
     Director, Michoud Assembly Facility
     Program Director, Santa Susana Field Laboratory
     Director, Stennis Space Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management




28                                                                        REPORT NO. IG-14-021
APPENDIX E



Congressional Committees and Subcommittees, Chairman and
  Ranking Member

   Senate Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   Senate Committee on Commerce, Science, and Transportation
      Subcommittee on Science and Space
   Senate Committee on Environment and Public Works
      Subcommittee on Oversight
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   House Committee on Natural Resources
      Subcommittee on Public Lands and Environmental Regulation
   House Committee on Oversight and Government Reform
      Subcommittee on Government Operations
   House Committee on Science, Space, and Technology
      Subcommittee on Oversight
      Subcommittee on Space




REPORT NO. IG-14-021                                                     29
Major Contributors to the Report:
   Laura Nicolosi, Director, Mission Support Directorate
   Karen VanSant, Project Manager
   Amy Bannister, Team Lead Auditor
   Rebecca Carpenter, Management Analyst

Other Contributors
   Susan Bachle, Auditor




REPORT NO. IG-14-021                                       31
                                                                                      JULY 2, 2014
                                                                    REPORT NO. IG-14-021




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
